WAIVER

Supreme Court of the United States --

No. 20-7713
Anthony Keenan Sharp v. Lawrence Long, Judge, Second Judicial
Circuit Court of South Dakota, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:

© Tam filing this waiver on behalf of all respondents,

Tonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Lawrence Lin rege

 

Please check the appropriate box:
x Tam a member of'the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

Q Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member, (Filing Instructions: Mail the original signed form

on enN9 's Pifice, 1 First Street, NE, Washington, D.C. 20548).
Signature.

rare OO | OY 1802/
oY print) Name Ro bert BR. Andersen

. Mr. OMs. O Mrs. O Miss
‘Tien ] a LL P
Address BS 8 By Evre. Se FO Box ld
City & State Pe cre Sb tip 0 1201

Phone 0D) BQY4- BA / )3. Email ba @ 1c \ dam- net

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

  
 

 

 

 

cet
